                    U.S. Department of Agriculture

                       Office of Inspector General
                                  Northeast Region




          Audit Report

 Food Safety and Inspection Service
Assessment of the Equivalence of the
    Canadian Inspection System




                          Report No. 24601-05-Hy
                                  December 2005
                     UNITED STATES DEPARTMENT OF AGRICULTURE
                                 OFFICE OF INSPECTOR GENERAL

                                      Washington D.C. 20250


December 20, 2005

REPLY TO
ATTN OF:      24601-05-Hy

TO:           Barbara Masters
              Administrator
              Food Safety and Inspection Service

ATTN:         Jane Roth
              Acting Assistant Administrator
              Office of Program Evaluation, Enforcement, and Review

FROM:         Robert W. Young /s/
              Assistant Inspector General
                for Audit

SUBJECT:      Food Safety and Inspection Service Assessment of the Equivalence of the
              Canadian Inspection System


This report presents the results of our audit of the Food Safety and Inspection Service’s
assessment of the equivalence of the Canadian inspection system. Your response to the official
draft, dated December 9, 2005, is included as exhibit A. Excerpts of your response and the
OIG’s position are incorporated into the Findings and Recommendations section of the report.
Based on your response, we were able to reach management decision on the report’s five
recommendations.      Please follow your agency’s internal procedures in forwarding
documentation for final action to the Office of the Chief Financial Officer.

We appreciate the courtesies and cooperation extended to us by members of your staff during
this audit.
Executive Summary
Food Safety and Inspection Service Assessment of the Equivalence of the Canadian
Inspection System (Audit Report No. 24601-05-Hy)

Results in Brief                       We evaluated the Food Safety and Inspection Service’s (FSIS) assessment of
                                       the equivalence of the Canadian inspection system for meat and poultry
                                       products. In a November 6, 2003, memorandum, the FSIS Administrator and
                                       the Under Secretary for Food Safety identified serious concerns with the
                                       Canadian inspection system. They noted in the memorandum that these
                                       concerns had the potential for compromising public health. We found FSIS
                                       did not timely address these serious concerns. For example, in July 2003,
                                       FSIS identified that Canadian inspection officials were not enforcing certain
                                       pathogen reduction and Hazard Analysis and Critical Control Point (HACCP)
                                       system regulations. These same types of concerns were identified again in
                                       June 2005, almost 2 years later.

                                       Timely actions were not taken because FSIS does not have protocols or
                                       guidelines for evaluating deficiencies in a country’s inspection system that
                                       could jeopardize a country’s overall equivalence determination. In addition,
                                       FSIS did not institute compensating controls (e.g., increased port-of-entry
                                       testing) to ensure that public health was not compromised while deficiencies
                                       were present. Over 4.4 billion pounds of Canadian processed product entered
                                       U.S. commerce from January 1, 2003 through May 31, 2005. In FSIS’
                                       information system, the products were categorized as cuts and trimmings of
                                       raw product as well as products with additional processing from pork, veal,
                                       beef, poultry, and lamb. These products were produced and allowed to be
                                       exported to the United States even though FSIS officials questioned the
                                       equivalence of the Canadian inspection system.

                                       FSIS regulations 1 require foreign inspection systems to provide standards
                                       equivalent to those of the United States. These requirements include the
                                       implementation of sanitation controls and HACCP requirements. Sanitation
                                       controls cover all aspects of facility and equipment sanitation, the prevention
                                       of actual or potential instances of product cross-contamination, good personal
                                       hygiene practices, and good product handling and storage practices. All
                                       plants must develop, adopt, and implement a HACCP plan for each of their
                                       processes. Under HACCP, plants identify critical control points during their
                                       processes where hazards such as microbial contamination can occur, establish
                                       controls to prevent or reduce those hazards, and maintain records
                                       documenting that controls are working as intended.

                                       In July 2003, as part of an onsite review, FSIS identified serious concerns
                                       with the Canadian inspection system. These concerns included the

1
    Title 9, Code of Federal Regulations (C.F.R.) § 327.2 (a) (2) and 9 C.F.R. § 381.196 (a) (2), January 1, 2005 edition.

USDA/OIG-Audit No. 24601-05-Hy                                                                                               Page i
                    insufficient implementation of sanitation controls and HACCP requirements
                    by establishments and the lack of enforcement in these areas by Canadian
                    inspection officials. Based on these concerns, FSIS proposed an enforcement
                    review in 2004. (Enforcement reviews can lead to a determination that a
                    country’s system is not equivalent to U.S. standards and, thus, not eligible to
                    export to the United States). The proposed 2004 enforcement review was not
                    conducted and FSIS officials did not reassess Canada’s implementation and
                    enforcement of sanitation controls and HAACP requirements until almost
                    2 years later. When FSIS officials finally returned to Canada in May 2005,
                    they continued to find the same types of deficiencies they had found in 2003.
                    FSIS should analyze the deficiencies identified in the 2003 and 2005 reviews
                    to determine whether immediate actions are needed to address concerns
                    regarding public health and if additional enforcement measures are needed.

                    FSIS’ analysis of the regulations governing the Canadian inspection system
                    identified two areas which may not be equivalent to the United States
                    inspection system. FSIS found that Canadian policy allowed less than daily
                    inspection coverage in processing establishments. By contrast, FSIS has a
                    long established history of requiring the presence of an inspector in a U.S.
                    processing establishment at least once per shift per day. FSIS also identified
                    differences in the testing performed for Listeria monocytogenes. Canadian
                    inspection officials require establishments to perform risk-based
                    environmental sampling, as opposed to the finished product sampling
                    required by FSIS.

                    In a management alert to the FSIS Administrator in July 2005, we reported
                    that FSIS had not taken timely action to resolve the agency’s June 2003
                    finding that Canada does not require daily inspection coverage at processing
                    establishments that export product to the United States. In addition, FSIS’
                    actions regarding Canadian processing establishments were not consistent
                    with how the agency treated similarly situated countries. When FSIS
                    identified less than daily inspection in establishments in Australia in
                    June 2004, and in Belgium in July 2003, the establishments were
                    immediately delisted and no longer allowed to export product to the United
                    States. According to FSIS officials, Australia and Belgium did not pursue an
                    equivalence determination, which was pursued by Canada. In response to our
                    recommendations, FSIS agreed to initiate a number of actions to ensure that
                    an equivalence determination was made regarding daily inspection coverage.
                    However, FSIS asserted that a final decision could not be made until 2007. In
                    the interim, FSIS agreed to implement measures that the agency believes will
                    ensure there is no increased risk to the public health in the United States.
                    These measures included doubling the sampling of Canadian shipments and
                    increasing the presence of Canadian inspection officials in processing
                    establishments exporting to the United States.



USDA/OIG-Audit No. 24601-05-Hy                                                              Page ii
Recommendation
In Brief            FSIS needs to develop and implement protocols for postponing or canceling a
                    scheduled enforcement review and for determining which equivalence
                    deficiencies would call into question a country’s overall equivalence to U.S.
                    standards. In addition, FSIS should analyze the deficiencies identified in the
                    2003 and 2005 reviews of the Canadian inspection system to determine
                    whether additional actions are needed to address concerns regarding public
                    health. Finally, FSIS needs to develop an action plan for determining whether
                    the Canadian inspection system control for Listeria monocytogenes in
                    ready-to-eat products is equivalent to that of the United States.


Agency Response
                    FSIS agreed with the report’s recommendations. We have incorporated the
                    agency’s response in the Findings and Recommendations section of this
                    report, along with the OIG position. The response is included as Exhibit A.
OIG Position
                    Based on the response, we were able to reach management decision on the
                    report’s five recommendations.




USDA/OIG-Audit No. 24601-05-Hy                                                            Page iii
Abbreviations Used in This Report


BSE                     Bovine Spongiform Encephalopathy
C.F.R.                  Code of Federal Regulations
FSIS                    Food Safety and Inspection Service
HACCP                   Hazard Analysis and Critical Control Point
OCFO                    Office of the Chief Financial Officer
Secretary               Secretary of Agriculture
USDA                    U.S. Department of Agriculture




USDA/OIG-Audit No. 24601-05-Hy                                       Page iv
Table of Contents

Executive Summary .................................................................................................................................i

Abbreviations Used in This Report ......................................................................................................iv

Background and Objectives ................................................................................................................... 1

Findings and Recommendations............................................................................................................ 4

    Section 1. Equivalency of the Canadian Inspection System........................................................... 4

        Finding 1             FSIS Did Not Timely Address Concerns With the Canadian Inspection
                              System ..................................................................................................................... 4
                                  Recommendation 1 ........................................................................................ 11
                                  Recommendation 2 ........................................................................................ 12
                                  Recommendation 3 ........................................................................................ 13
                                  Recommendation 4 ........................................................................................ 14
                                  Recommendation 5 ........................................................................................ 14

Scope and Methodology........................................................................................................................ 15

Exhibit A – Agency Response .............................................................................................................. 16




USDA/OIG-Audit No. 24601-05-Hy                                                                                                                  Page v
Background and Objectives
Background                            U.S. food safety legislation 2 requires foreign countries that export meat and
                                      poultry products to the United States to establish and maintain systems that
                                      are equivalent to the U.S. inspection system. Meat and poultry products must
                                      originate in countries and establishments approved to export to the United
                                      States. The U.S. Department of Agriculture’s (USDA) Food Safety and
                                      Inspection Service (FSIS) is responsible for monitoring foreign countries and
                                      exporters to ensure the countries’ food safety systems are equivalent to U.S.
                                      standards and that exporters are certified as meeting those standards.

                                      FSIS administers its imported meat and poultry inspection program primarily
                                      through the Office of International Affairs and the Office of Program
                                      Evaluation, Enforcement, and Review. The Office of International Affairs is
                                      responsible for formulating policies, determining a foreign country’s
                                      eligibility to export meat and poultry products to the United States, reviewing
                                      food safety requirements imposed by foreign governments, and reinspecting
                                      imported meat and poultry products. The Office of Program Evaluation,
                                      Enforcement, and Review conducts system audits, which include a review of
                                      a sample of exporting establishments, to ensure that products are produced
                                      under requirements equivalent to U.S. inspection requirements. These review
                                      and inspection activities form the basis of FSIS’ determinations of whether a
                                      country’s inspection system is equivalent to U.S. standards.

                                      Food safety equivalence evaluations are based on provisions of the
                                      Agreement on the Application of Sanitary and Phytosanitary Measures,
                                      which became effective in January 1995. Prior to this agreement, FSIS
                                      focused on individual establishments and evaluated whether foreign food
                                      safety systems were “at least equal to” the U.S. system. The principle
                                      underlying FSIS’ current import inspection activities is the “systems
                                      approach,” which evaluates the equivalence of the inspection system controls
                                      of each country. Regulations 3 codify FSIS’ responsibilities for evaluating
                                      foreign meat and poultry inspection systems. The burden for demonstrating
                                      equivalence rests with the exporting country and the importing country is free
                                      to set any level of protection it deems appropriate to control or eliminate a
                                      food safety hazard.

                                      FSIS evaluates the equivalency of foreign meat and poultry inspection
                                      systems through a process that consists of (1) document analysis, (2) onsite
                                      review, and (3) port-of-entry product reinspection. Judgments of system
                                      equivalence are necessary for FSIS and the American public to develop and
                                      maintain trust in imported meat and poultry products.

2
    The Federal Meat Inspection Act and Poultry Products Inspection Act.
3
    Title 9, Code of Federal Regulations (C.F.R.) § 327, Imported Products, and 9 C.F.R.§ 381, Subpart T, Imported Poultry Products.
USDA/OIG-Audit No. 24601-05-Hy                                                                                                         Page 1
                    A foreign country must apply for and receive a determination of equivalency
                    before it can export meat and poultry products to the United States. To make
                    this determination, FSIS performs a document review and an onsite
                    equivalency verification. After a country is determined to have an equivalent
                    system and is eligible to export to the United States, FSIS relies on the
                    country to provide effective oversight of food inspection activities and
                    enforcement of U.S. requirements. However, FSIS continues to monitor the
                    country’s activities. In addition to randomly sampling imported meat and
                    poultry products, FSIS conducts onsite reviews of the country’s inspection
                    system to ensure that its procedures and standards remain equivalent.
                    Reviewers visit certified establishments and focus on five areas of risk (i.e.,
                    animal disease, sanitation, enforcement, residue, and slaughter/processing).
                    These reviews are generally conducted annually. If the monitoring reviews
                    identify critical weaknesses in the implementation and enforcement of key
                    provisions, FSIS generally conducts an enforcement review, with the
                    objective of determining whether exports to the United States should
                    continue. Unsatisfactory enforcement review findings may prompt FSIS to
                    suspend exports to the United States from the country until the identified
                    problems are corrected.

                    In July 2003, a routine monitoring review of Canada’s inspection system was
                    conducted to ensure that its procedures and standards remained equivalent.
                    The objective of this review was to evaluate the performance of the Canadian
                    inspection system with respect to controls over slaughter and processing
                    establishments certified as eligible to export product to the United States.
                    This review disclosed that Canadian inspection officials were not enforcing
                    requirements as necessary to ensure equivalence with FSIS pathogen
                    reduction and Hazard Analysis and Critical Control Point (HACCP) system
                    regulations. FSIS also found that some processing establishments were
                    allowed to export products to the United States, even though they did not
                    receive daily inspection, as required by U.S. standards. As noted in FSIS’
                    report to the U.S. Congress, in March 2004:

                          “A foreign plant can be delisted if it were found to have any serious
                          deficiency that shows it is not meeting standards equal to those
                          achieved in U.S. domestic plants. Examples include instances of direct
                          product contamination; poor environmental sanitation that could lead
                          to direct product contamination; lack of a sanitation standard operating
                          procedure or failure to implement an existing procedure; no HACCP
                          plan or an inadequate plan or not following an existing plan; no testing
                          for generic E. coli; less than continuous inspection coverage
                          (emphasis added); humane slaughter violations; and any other
                          fundamental requirement of equivalence.”

                    On May 20, 2003, the Secretary of Agriculture (Secretary) halted imports of
                    live cattle, other live ruminants, beef, and other ruminant products from
USDA/OIG-Audit No. 24601-05-Hy                                                              Page 2
                                      Canada after a cow in Alberta was found to have bovine spongiform
                                      encephalopathy (BSE), widely known as “mad cow disease.” 4 Prior to this
                                      time, live cattle and beef were traded freely between the United States and
                                      Canada. Due to the serious impact on trade, USDA officials sought a method
                                      to allow limited imports from Canada. On August 8, 2003, the Secretary
                                      announced a list of low-risk products, including boneless beef from cattle less
                                      than 30 months of age and veal meat from calves less than 36 weeks of age,
                                      which would be allowed into the United States from Canada, under certain
                                      predetermined conditions. In November 2003, USDA published a proposed
                                      rule in the Federal Register to create a low-risk category for countries with
                                      BSE, to place Canada on that list, and to allow imports of, among other
                                      things, low-risk beef products and live cattle less than 30 months of age to
                                      resume.

                                      On March 2, 2005, a temporary injunction was issued by a U.S. district court
                                      regarding USDA’s minimal risk rule. This ruling temporarily delayed the
                                      implementation of the rule, which would have re-established trade with
                                      Canada for live cattle less than 30 months of age and certain meat products.
                                      On July 14, 2005, however, the Ninth Circuit Court of Appeals lifted the
                                      preliminary injunction that blocked implementation of the BSE minimal risk
                                      rule and allowed the importing of live cattle less than 30 months of age from
                                      Canada to the United States for processing.


Objectives                            The objective of our review was to evaluate FSIS’ assessment of the
                                      equivalence of the Canadian inspection system. This evaluation included
                                      determining whether FSIS took appropriate and timely actions on identified
                                      concerns and whether FSIS ensured that Canadian processing plants
                                      exporting meat and poultry products to the United States received daily
                                      inspection.

                                      To accomplish the objective, we performed fieldwork at FSIS Headquarters.
                                      Our audit work primarily covered FSIS’ assessments of the Canadian
                                      inspection system from July 2003 through July 2005. (See Scope and
                                      Methodology for details.)




4
    Since 1989, USDA’s Animal and Plant Health Inspection Service has led an interagency effort to monitor BSE. BSE is a chronic disease affecting the
    central nervous system of cattle. Worldwide there have been more than 180,000 cases in cattle since the disease was first diagnosed in 1986 in Great
    Britain.
USDA/OIG-Audit No. 24601-05-Hy                                                                                                                Page 3
Findings and Recommendations
Section 1. Equivalency of the Canadian Inspection System

Finding 1                              FSIS Did Not Timely Address Concerns With the Canadian
                                       Inspection System

                                       The FSIS did not timely address serious concerns with the Canadian
                                       inspection system even though high-level agency officials documented the
                                       potential for compromising public health. In July 2003, FSIS found that
                                       Canadian inspection officials were not enforcing pathogen reduction and
                                       HACCP system regulations. These same types of concerns were identified
                                       again in June 2005, almost 2 years later. However, as of September 2005,
                                       FSIS has not made a determination whether the identified concerns are
                                       serious enough to limit the import of Canadian products. As a result, FSIS
                                       has allowed the importation of almost 700 million pounds of meat and
                                       poultry from plants that did not receive daily inspection, a requirement for all
                                       U.S. meat and poultry plants. Additionally, FSIS allowed the import of over
                                       261 million pounds of ready-to-eat meat and poultry that had not been
                                       subjected to finished product testing for Listeria monocytogenes, as is
                                       required of U.S. plants.

                                       Timely actions have not been taken because FSIS does not have protocols or
                                       guidelines for evaluating deficiencies in a country’s inspection system that
                                       could jeopardize a country’s overall equivalence determination. In addition,
                                       FSIS did not institute compensating controls to ensure that public health was
                                       not compromised while deficiencies were present. Over 4.4 billion pounds of
                                       Canadian processed product entered U.S. commerce from January 1, 2003
                                       through May 31, 2005. In FSIS’ information system, the products were
                                       categorized as cuts and trimmings of raw product as well as products with
                                       additional processing from pork, veal, beef, poultry, and lamb. These
                                       products were produced and allowed to be exported to the United States even
                                       though FSIS officials questioned the equivalence of the Canadian inspection
                                       system.

                                       FSIS regulations 5 require foreign inspection systems to provide standards
                                       equivalent to those of the United States. These requirements include the
                                       implementation of sanitation controls and HACCP requirements. Sanitation
                                       controls cover all aspects of facility and equipment sanitation, the prevention
                                       of actual or potential instances of product cross-contamination, good personal
                                       hygiene practices, and good product handling and storage practices. All
                                       plants must develop, adopt, and implement a HACCP plan for each of their
                                       processes. Under HACCP, plants identify critical control points during their

5
    9 C.F.R.§ 327.2 (a) (2) and 9 C.F.R. § 381.196 (a) (2), both effective January 1, 2005.
USDA/OIG-Audit No. 24601-05-Hy                                                                                  Page 4
                    processes where hazards such as microbial contamination can occur, establish
                    controls to prevent or reduce those hazards, and maintain records
                    documenting that controls are working as intended.

                    Our audit tests disclosed that in July 2003, as part of an onsite review, FSIS
                    identified serious concerns with the Canadian inspection system. These
                    concerns included the insufficient implementation of sanitation controls and
                    HACCP requirements by establishments and the lack of enforcement in these
                    areas by Canadian inspection officials. Based on these concerns, FSIS
                    proposed, but did not conduct, an enforcement review in 2004. This review
                    was initially postponed due to resource constraints, but was subsequently
                    cancelled when the Secretary directed FSIS to work with Canadian inspection
                    officials to resolve the outstanding differences. The enforcement review
                    could have led to the determination that meat and poultry products produced
                    under the Canadian inspection system were not eligible to be imported into
                    the United States. When FSIS officials returned to Canada in May 2005, they
                    continued to find the same types of deficiencies they found in 2003.

                    We also found that FSIS’ analysis of the regulations governing the Canadian
                    inspection system identified two areas which may not be equivalent to the
                    U.S. inspection system. FSIS found that Canadian policy allowed less than
                    daily inspection coverage in processing establishments. By contrast, FSIS has
                    a long established history of requiring the presence of an inspector in a U.S.
                    processing establishment at least once per shift per day. FSIS also identified
                    differences in the testing performed for Listeria monocytogenes. Canadian
                    inspection officials require establishments to perform risk-based
                    environmental sampling instead of risk-based finished product sampling
                    required by FSIS.

                    •   Serious Concerns Identified in 2003. In July 2003, FSIS completed an
                        onsite review of the Canadian inspection system and concluded that
                        Canada’s meat and poultry inspection system had serious deficiencies in
                        enforcing U.S. inspection requirements, particularly those of the
                        pathogen reduction and HACCP system regulations. The findings of the
                        2003 review disclosed continuing problems with the implementation of
                        U.S. inspection requirements in all Canadian establishments certified to
                        export product to the United States.

                        On November 6, 2003, the FSIS Administrator and the Under Secretary
                        for Food Safety informed the Secretary of their concerns with the
                        Canadian inspection system. In this memorandum to the Secretary,
                        agency officials concluded that the Canadian inspection system had
                        failed to implement adequate corrective actions in response to FSIS
                        reviews in 2002 and 2003. These reviews found that Canada was not
                        maintaining inspection requirements equivalent to those of the United
                        States. In the 2003 review, FSIS officials visited 37 Canadian
USDA/OIG-Audit No. 24601-05-Hy                                                             Page 5
                                              establishments to evaluate their inspection program. FSIS officials found
                                              a number of deficiencies that call into question the equivalence of the
                                              Canadian inspection system. Examples included the insufficient
                                              implementation of sanitation controls and HACCP requirements by
                                              establishments as well as the lack of enforcement in these areas and less
                                              than daily inspection at processing establishments by Canadian
                                              inspection officials.

                                              − In 22 of the 37 establishments, FSIS officials found that the Canadian
                                                inspection system did not have adequate sanitation controls. FSIS
                                                officials found that Canadian establishments did not ensure sanitation
                                                controls were adequately implemented or evaluated for effectiveness.
                                                FSIS also found that the establishments did not take corrective
                                                actions when sanitation controls failed to prevent direct product
                                                contamination or adulteration and did not maintain daily records of
                                                these activities.

                                              − FSIS officials found that Canadian inspection officials did not
                                                implement certain HACCP requirements in 27 of the
                                                37 establishments. FSIS found that Canadian establishments were
                                                deficient in validating their HACCP plans, documenting corrective
                                                actions, and reassessing the adequacy of the plans.

                                              − As part of the review of specific establishments, FSIS evaluated
                                                whether Canadian inspection officials adequately enforced FSIS
                                                requirements. FSIS officials found that the Canadian inspection
                                                system did not have adequate controls to ensure FSIS requirements
                                                were enforced. FSIS officials identified deficiencies in the areas of
                                                sanitation controls and HACCP requirements that had not been
                                                previously noted by Canadian inspection officials. This condition
                                                occurred in 32 of the 37 establishments visited by FSIS officials.

                                              − Of the 37 establishments visited, 28 were establishments that
                                                produced processed products. FSIS officials found that Canadian
                                                inspection officials provided less than daily inspection at 10 of the
                                                28 processing establishments visited. Foreign establishments should
                                                be delisted when FSIS finds a serious deficiency such as this that
                                                shows standards equivalent to U.S. standards are not met. However,
                                                FSIS did not require the 10 Canadian establishments to be delisted
                                                even though FSIS was aware that Canadian policy allowed
                                                processing establishments to receive less than daily inspection
                                                coverage. 6



6
    None of these 10 establishments were slaughter establishments.
USDA/OIG-Audit No. 24601-05-Hy                                                                                  Page 6
                        In the November 6, 2003, memorandum to the Secretary, FSIS reported
                        that it believed that public health may be compromised if the agency did
                        not immediately take strong enforcement actions in response to the
                        deficiencies noted in the Canadian inspection system. FSIS planned an
                        enforcement review for fiscal year 2004. According to the memorandum
                        to the Secretary, “if the results of the enforcement review are
                        unsatisfactory, FSIS will consider suspending inspection operations in all
                        certified establishments.”

                    •   No Enforcement Review in 2004. Despite planning for an enforcement
                        review in 2004, FSIS performed no onsite reviews in Canada in response
                        to the deficiencies noted in 2003. The enforcement review planned for
                        June 2004 was postponed until October 2004 due to resource constraints.
                        On October 8, 2004, FSIS officials notified Canadian inspection officials
                        that the review was indefinitely postponed to give FSIS more time to
                        prepare for the review. However, on October 6, 2004, an email from the
                        Assistant Administrator for International Affairs explained that the
                        Secretary had directed the agency to work with Canadian inspection
                        officials to resolve outstanding differences identified in 2003, which
                        included less than daily inspection in processing establishments.

                        In 2003, FSIS identified concerns which caused the agency to question
                        the equivalence of the Canadian inspection system and to express
                        concern about U.S. public health. These concerns were not resolved
                        when FSIS implemented the Secretary’s direction and compensating
                        controls (e.g., increased port-of-entry testing) were not instituted to
                        alleviate their concerns. FSIS should implement a protocol for
                        determining when a scheduled enforcement review can be postponed or
                        cancelled. This protocol should provide guidance on the criteria to use
                        for making this decision, the documentation to be completed, and the
                        compensating controls that will be implemented in the interim until the
                        concerns are resolved.

                        FSIS did perform onsite reviews in December 2004 and February 2005;
                        however, these reviews did not focus on the differences identified in
                        2003. These two reviews primarily evaluated the implementation of
                        FSIS’ requirements related to BSE. In December 2004, FSIS officials
                        performed a review of 15 Canadian establishments that slaughtered cattle
                        and calves for export to the United States. This review found that
                        Canadian establishments implemented FSIS’ requirements for BSE and
                        controlled the use of hormone implants in calves. In February 2005,
                        FSIS officials visited two Canadian beef slaughter establishments and
                        three establishments that processed this product. This review found that




USDA/OIG-Audit No. 24601-05-Hy                                                             Page 7
                                              Canadian inspection officials adequately implemented FSIS’ rules
                                              regarding BSE and specified risk materials. 7

                                       •      Serious Concerns Continue in 2005. In May 2005, FSIS initiated a
                                              more thorough examination of the Canadian inspection system. FSIS
                                              visited 35 establishments, which included 3 meat slaughter
                                              establishments, 21 meat and poultry processing establishments, and
                                              11 meat and poultry establishments that had both slaughter and
                                              processing operations. FSIS also evaluated operations for residue and
                                              microbiological testing at 12 laboratories. The review was completed in
                                              June 2005, and FSIS officials continued to find a number of deficiencies
                                              that call into question the equivalence of the Canadian inspection system.
                                              As in 2003, the deficiencies included the insufficient implementation of
                                              sanitation controls and HACCP requirements by establishments and the
                                              lack of enforcement in these areas by Canadian inspection officials. FSIS
                                              officials noted, but did not report, less than daily inspection at
                                              17 processing establishments.

                                              − In 21 of the 35 establishments, FSIS officials found that the Canadian
                                                inspection system did not have adequate sanitation controls. FSIS
                                                continued to find that Canadian establishments did not ensure
                                                sanitation controls were adequately implemented or evaluated for
                                                effectiveness. In addition, the establishments did not take corrective
                                                actions when sanitation controls failed to prevent direct product
                                                contamination or adulteration and did not maintain daily records of
                                                these activities.

                                              − FSIS officials found that Canadian inspection officials did not
                                                implement certain HACCP requirements in 19 of the
                                                35 establishments. FSIS again found that Canadian establishments
                                                were deficient in validating their HACCP plans, documenting
                                                corrective actions, and reassessing the adequacy of the plans.

                                              − As part of the review of specific establishments, FSIS again
                                                evaluated whether Canadian inspection officials adequately enforced
                                                FSIS requirements. FSIS officials found that the Canadian inspection
                                                system did not have adequate controls to ensure FSIS requirements
                                                were enforced. FSIS officials identified deficiencies in the areas of
                                                sanitation controls and HACCP requirements that had not been
                                                previously noted by Canadian inspection officials. This condition
                                                occurred in 29 of the 35 establishments visited by FSIS officials.



7
    Specified risk materials are prohibited from use for human food. The materials include the brain, skull, eyes, trigeminal ganglia, spinal cord, vertebral
    column (excluding the vertebrae of the tail, the traverse processes of the thoracic and lumbar vertebrae, and the wings of the sacrum), dorsal root
    ganglia of cattle 30 months of age and older, tonsils, and distal ileum of the small intestine of all cattle.
USDA/OIG-Audit No. 24601-05-Hy                                                                                                                    Page 8
                        In 2003, FSIS identified concerns which caused the agency to question
                        the equivalence of the Canadian inspection system and to express
                        concern about U.S. public health. The same types of concerns were
                        identified in the review completed in June 2005. FSIS should analyze the
                        deficiencies identified in the 2003 and 2005 reviews to determine
                        whether immediate actions are needed to address concerns regarding
                        public health and if additional enforcement measures are needed.

                    •   Less Than Daily Inspection in Processing Establishments. On
                        July 29, 2005, we issued a management alert to FSIS which identified a
                        condition that warranted the agency’s immediate attention. We reported
                        that FSIS had not taken timely action to resolve the agency’s July 2003
                        finding that Canada does not require daily inspection coverage at
                        processing establishments that export product to the United States.
                        Specifically, the agency identified 10 processing establishments that
                        received less than daily inspection and subsequently Canada reported
                        252 of its processing establishments did not receive daily inspection
                        coverage during all processing shifts. Almost 700 million pounds of
                        product entered U.S. commerce from these 252 establishments from
                        January 1, 2003 through May 31, 2005. In FSIS’ information system, the
                        products were categorized as cuts and trimmings of raw product as well
                        as products with additional processing from pork, veal, beef, poultry, and
                        lamb.

                        According to established FSIS policy, foreign establishments are
                        required to receive daily inspection coverage in order to be eligible to
                        export to the United States. In the United States, FSIS has a long
                        established history of requiring the presence of an inspector in an
                        establishment at least once per shift per day. In addition, FSIS’ actions
                        regarding Canadian processing establishments were not consistent with
                        how the agency treated similarly situated countries. When FSIS
                        identified less than daily inspection in establishments in Australia in
                        June 2004, and Belgium in July 2003, the establishments were
                        immediately delisted and no longer allowed to export product to the
                        United States.

                        As part of our management alert in July 2005, we recommended that
                        FSIS specify a date by which Canada must provide documentation to
                        demonstrate that its policy of less than daily inspection coverage in
                        processing establishments provides the same level of protection as FSIS’
                        requirement of daily inspection coverage. We also recommended that
                        FSIS establish a time period for the agency to evaluate the equivalency
                        of Canada’s submission and implement the results of the equivalence
                        determination.



USDA/OIG-Audit No. 24601-05-Hy                                                             Page 9
                        In response to our recommendations, FSIS agreed to take a number of
                        steps to ensure that the equivalence evaluation and determination is
                        completed in a timely manner and that there is no increased risk to the
                        public health in the United States during that process. Canadian
                        inspection officials agreed to provide documentation and data by
                        June 30, 2007, to demonstrate that its policy of less than daily inspection
                        coverage in processing establishments provide the same level of
                        protection as FSIS’ requirement of daily inspection. This amount of time
                        was considered necessary by the FSIS Administrator to develop the plan,
                        collect and analyze the data, and have the results peer reviewed. FSIS
                        agreed to complete its analysis of this documentation and data and make
                        its decision by November 1, 2007. In the interim, FSIS stated that it
                        doubled the sampling of shipments from these processing establishments
                        at the U.S. ports of entry on August 22, 2005. According to FSIS’
                        sampling plan for Canadian product, FSIS would double its sampling of
                        shipments of products imported into the United States, except for
                        shipments of products imported in extremely low volumes. No change
                        was made for the sampling of these shipments because FSIS currently
                        samples all or 50 percent of the shipments imported.

                        In response to our recommendations, FSIS explained that Canadian
                        inspection officials agreed to increase inspection presence in processing
                        establishments exporting to the United States. In a memorandum dated
                        August 12, 2005, FSIS officials confirmed their understanding regarding
                        the increase in inspection presence. FSIS officials confirmed that
                        Canadian inspection officials “will assure that a government inspector
                        will visit all Canadian processing establishments that are certified for
                        export to the United States at least once during the critical phases of
                        production (for example, verification of critical control points) of
                        products that will be exported to this country.” According to FSIS
                        officials, Canadian inspection officials initiated these revisions on
                        August 22, 2005, and completed them on September 12, 2005.

                    •   No Sampling of Ready-to-Eat Product for Listeria monocytogenes. In
                        April 2004, FSIS initiated a comparison of the United States and
                        Canadian inspection systems. Through this analysis, FSIS identified that
                        Canadian inspection officials did not routinely sample ready-to-eat
                        product for the presence of Listeria monocytogenes. FSIS found that
                        Canadian inspection officials require establishments to perform
                        risk-based environmental sampling as a substitute for the United States
                        requirement for risk-based finished product sampling. FSIS needs to
                        establish a definite time period for determining whether the Canadian
                        inspection system control for Listeria monocytogenes in ready-to-eat
                        meat and poultry product is equivalent to that of the United States. In
                        addition, FSIS needs to increase port-of-entry reinspection testing in an
                        effort to institute a compensating control. According to FSIS data, over
USDA/OIG-Audit No. 24601-05-Hy                                                            Page 10
                        261 million pounds of ready-to-eat product was exported to the United
                        States from Canada from January 1, 2003 through May 31, 2005.

                        In March 2005, Canada presented data on environmental testing for
                        Listeria monocytogenes and how it relates to the presence of Listeria
                        monocytogenes in finished ready-to-eat products. In subsequent
                        meetings, Canadian inspection officials provided FSIS officials with a
                        proposed program to be considered for equivalence with FSIS sampling
                        and monitoring programs. As a result of the discussions of the proposed
                        program, Canadian inspection officials indicated that Canada would
                        consider the development of a study protocol that would be designed to
                        result in data that would demonstrate the comparable value of
                        environmental testing and finished product testing in verifying the
                        absence of Listeria monocytogenes in ready-to-eat foods. In
                        August 2005, FSIS requested a status report on this issue.

                    In July 2003, FSIS identified that Canadian inspection officials were not
                    enforcing requirements equivalent to FSIS’ pathogen reduction and HACCP
                    system regulations. In a memorandum to the Secretary in November 2003,
                    FSIS officials stated that the deficiencies in the Canadian inspection system
                    may compromise U.S. public health. The agency did not take timely action to
                    address the serious concerns with the Canadian inspection system. For
                    example, FSIS postponed and ultimately cancelled an enforcement review of
                    the Canadian inspection system. When an enforcement review is
                    recommended by the agency, there should be a documented justification for
                    not performing the scheduled review. The protocol for postponing or
                    canceling a scheduled enforcement review should specify such things as what
                    criteria must be met, what documentation must be completed, and what
                    compensating controls will be implemented in the interim. FSIS also needs to
                    implement protocols for evaluating deficiencies that call into question the
                    equivalence of a foreign country inspection system. For Canada, the
                    deficiencies dealt with the insufficient implementation of sanitation controls
                    and HACCP requirements by establishments and the lack of enforcement in
                    these areas by Canadian inspection officials. The protocols should specify
                    which deficiencies are public health concerns, the timeframes for making an
                    equivalence decision and acting on the decision made, and the compensating
                    controls to be implemented while decisions are being made.

Recommendation 1

                    Develop and implement a protocol for postponing or canceling a scheduled
                    enforcement review. The protocol should specify what criteria must be met,
                    what documentation must be completed, and what compensating controls
                    should be implemented to address concerns in the interim.



USDA/OIG-Audit No. 24601-05-Hy                                                           Page 11
                    Agency Response.

                    FSIS concurs with this recommendation and has begun developing a process
                    for evaluating when a scheduled enforcement audit should be postponed or
                    cancelled. This will be completed by March 31, 2006, and implementation
                    will begin immediately thereafter.

                    OIG Position.

                    We accept FSIS’ management decision. For final action, FSIS needs to
                    provide the Office of the Chief Financial Officer (OCFO) with
                    documentation that describes the process developed for evaluating when a
                    scheduled enforcement review should be postponed or cancelled.

Recommendation 2

                    Analyze the deficiencies identified in the 2003 and 2005 reviews of the
                    Canadian inspection system to determine whether immediate actions are
                    needed to address concerns regarding public health and if additional
                    enforcement measures are needed to resolve any outstanding concerns. If the
                    deficiencies no longer potentially compromise public health, document the
                    rationale for this conclusion.

                    Agency Response.

                    During and immediately following the 2003 and 2005 audits, FSIS addressed
                    audit deficiencies with Canadian Food Inspection Agency officials. For those
                    deficiencies that had potential impact on public health such as product
                    contamination, FSIS auditors required the establishments to take immediate
                    corrective actions. In some instances, FSIS also required enforcement action
                    be taken by Canadian authorities. These enforcement actions included
                    immediate delistment of the establishment or the issuance of a warning letter
                    that required the establishment to take specific corrective actions within 30
                    days or be delisted.

                    FSIS believes the analyses we have already conducted of the 2003 and 2005
                    reviews have identified and resolved all potential public health concerns. In
                    light of this recommendation, FSIS will again review the 2003 and 2005 audit
                    findings to determine if any additional measures are necessary to verify that
                    public health is not being compromised. This review will be completed by
                    December 31, 2005.

                    Additionally, during the 2003 audit FSIS found that some Canadian
                    processing plants received less than daily inspection, a current requirement
                    for establishments that export meat and poultry products to the United States.
                    Since then, Canada has increased its inspection presence in processing plants
USDA/OIG-Audit No. 24601-05-Hy                                                            Page 12
                    exporting to the United States. Canada has agreed to provide documentation
                    to demonstrate that its policy of less than daily inspection coverage in
                    processing establishments provides the same level of protection as FSIS’
                    requirement of daily inspection. The plan for demonstrating that this
                    inspection system is equivalent must be agreed upon by both countries and
                    peer reviewed. After Canada has collected sufficient data and submits its
                    documentation, FSIS will analyze the documentation and make a
                    determination.

                    OIG Position.

                    We accept FSIS’ management decision. For final action, FSIS needs to
                    provide OCFO with a copy of the report of FSIS’ review to determine if
                    additional enforcement measures are needed to address any outstanding
                    concerns. If FSIS concludes that the deficiencies no longer potentially
                    compromise public health, the FSIS review report should document the
                    rationale for this conclusion.

Recommendation 3
                    Develop and implement protocols for determining which equivalence
                    deficiencies would question a country’s overall equivalence determination.
                    The protocols should specify which deficiencies are public health concerns,
                    the timeframes for making an equivalence decision and acting on the decision
                    made, and the compensating controls to be implemented while decisions are
                    being made.

                    Agency Response.

                    FSIS concurs with this recommendation and has begun to develop a process
                    for determining when a country’s overall equivalence is questionable and
                    what measures should then be taken by FSIS. This will be completed by
                    March 31, 2006, and implementation will begin immediately thereafter.

                    OIG Position.

                    We accept FSIS’ management decision. For final action, FSIS needs to
                    provide OCFO with documentation that describes the process developed for
                    determining that a country’s overall equivalence is questionable and what
                    measures should then be taken by FSIS.




USDA/OIG-Audit No. 24601-05-Hy                                                          Page 13
Recommendation 4
                    Specify a date by which Canada must provide documentation to demonstrate
                    that its inspection system control for Listeria monocytogenes in ready-to-eat
                    meat and poultry products is equivalent to that of the United States. Establish
                    a time period for the agency to evaluate the equivalency of Canada’s
                    submission and implement the results of the equivalence determination.
                    Agency Response.

                    On November 14, 2005, the Canadian Food Inspection Agency implemented
                    a Listeria monocytogenes testing program for ready-to-eat meat and poultry
                    products exported to the United States. This Listeria monocytogenes testing
                    program parallels what is currently being done by FSIS for ready-to-eat meat
                    and poultry products in the United States.

                    OIG Position.

                    We accept FSIS’ management decision. For final action, FSIS needs to
                    provide OCFO with documentation that describes the process for evaluating
                    the Listeria monocytogenes testing program implemented by Canadian
                    inspection officials and documentation to support that Canada’s Listeria
                    monocytogenes testing is equivalent to that of the United States.

Recommendation 5
                    As a compensating control while the equivalence determination is being
                    made, increase port-of-entry testing of ready-to-eat product for Listeria
                    monocytogenes.
                    Agency Response.

                    As a compensating control, in each year since 2003, FSIS has doubled
                    port-of-entry testing of Canadian ready-to-eat meat and poultry products for
                    Listeria monocytogenes.

                    OIG Position.

                    We accept FSIS’ management decision. For final action, FSIS needs to
                    provide OCFO with documentation to support that FSIS has doubled
                    port-of-entry testing for Listeria monocytogenes.




USDA/OIG-Audit No. 24601-05-Hy                                                            Page 14
Scope and Methodology
                    Our audit focused on evaluating FSIS’ assessment of the equivalence of the
                    Canadian inspection system. To do this, we primarily examined FSIS’
                    assessments of the Canadian inspection system from July 2003 through
                    June 2005. In addition, we reviewed the reports of FSIS’ onsite reviews since
                    July 2001.

                    To determine the adequacy FSIS’ assessment of the equivalence of the
                    Canadian inspection system, we concentrated our fieldwork at FSIS
                    Headquarters in Washington D.C. We held discussions with officials and
                    reviewed supporting documentation from the Office of International Affairs,
                    the Office of Policy, Program, and Employee Development, and the Office of
                    Field Operations. We also held discussions with staff from the Office of
                    Program Evaluation, Enforcement, and Review and from the Office of Public
                    Health Science, who participated in the most recent onsite review of
                    Canada’s inspection system in June 2005.

                    Our review included analyzing FSIS’ overall procedures for reviewing a
                    country’s inspection system, as well as those specifically related to Canada’s
                    inspection system. We reviewed procedures for conducting annual
                    equivalence reviews, conducting enforcement reviews, and determining
                    which deficiencies would call into question the equivalence of a foreign
                    country’s food safety system. We also analyzed FSIS’ side-by-side
                    comparison of the inspection systems of the United States and Canada, which
                    was completed in February 2005. Finally, we discussed FSIS’ policy for U.S.
                    slaughter and processing establishments to have daily inspection coverage
                    once per day per shift with representatives from FSIS’ Office of Policy,
                    Program, and Employee Development, FSIS’ Office of Field Operations, and
                    the Office of the General Counsel.

                    We conducted our audit between May 2005 and September 2005, in
                    accordance with Generally Accepted Government Auditing Standards.




USDA/OIG-Audit No. 24601-05-Hy                                                           Page 15
Exhibit A – Agency Response
                                 Exhibit A – Page 1 of 4




USDA/OIG-Audit No. 24601-05-Hy                Page 16
                                 Exhibit A – Page 2 of 4




USDA/OIG-Audit No. 24601-05-Hy                Page 17
                                 Exhibit A – Page 3 of 4




USDA/OIG-Audit No. 24601-05-Hy                Page 18
                                 Exhibit A – Page 4 of 4




USDA/OIG-Audit No. 24601-05-Hy                Page 19
